•

OCK
LE
N..../ --- Legal Briefs

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@coeldelegalbriefs.eom

Est. 1923

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.coeldelegalbriefs.com

No.
WILLIAM F. HOLDNER,
An Individual, dba HOLDNER FARMS,
Petitioner,
v.
KATY COBA, Director of the Department of
Agriculture, in her individual and official capacity;
DICK PEDERSON, Director of the Oregon
Department of Environmental Quality,
in his individual and official capacity,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 1716 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 16th day of July, 2019.
I am duly authorized under the laws of the State of Nebraska to administer oaths.
PATRICIA BILLOTTE
General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

Notary Public

Affiant

38210

